Office of Inspector Geeneral


April 30, 2013

MEMORA
     ANDUM

TO:       	          USAID
                         D/Pakistan Mission Director, Jonath
                                                           han M. Conlyy

FROM: 	              Office
                          e of Inspecto
                                      or General/Pakistan Dire
                                                             ector, Matthe
                                                                         ew Rathgebe
                                                                                   er /s/

SUBJEC
     CT: 	           Review of USAID/Pakistan’s Internationa l Training Prractices
                     (Repo
                         ort No. G-391-13-001-S))

This mem morandum trransmits ourr final reportt on the subj ect review. This is not an audit repo
                                                                                                ort. In
finalizing the report, we considerred your com
                                             mments and included your response      e in Appendixx II.

The repo ort containss four recom
                                mmendation  ns to help i mprove US SAID/Pakista
                                                                              an’s internattional
training practices. According to informationn provided b y the misssion, managgement decisions
have be een made on all fou     ur recomme  endations a nd final action has been taken     n on
Recomm  mendations 2, 3, and 4. The mission should coo ordinate with USAID’s Auudit Perform
                                                                                          mance
and Com mpliance Div vision conce
                                erning final action on th
                                                        he remainingg recommendations. Please
note thatt we do not agree with mission’s management d ecision on Recommend   dation 4.

We wantt to thank yo
                   ou and your staff for the
                                           e cooperatio
                                                      on and assisstance exten
                                                                             nded to us during
this revie
         ew.




U.S. Agency for International Development
American Em  mbassy, Diplomaticc Enclave
Ramna 5, Isla amabad, Pakistann
http://oig.usaiid.gov
SUMMARY OF RESULTS 

USAID’s training and career/professional development programs seek to help achieve the
Agency’s mission and performance objectives by improving individual and organizational
performance. They also support the Agency’s core values of teamwork and participation;
valuing diversity; customer service; results management; empowerment; and accountability. In
addition, USAID encourages employees to continue to develop their knowledge, abilities, and
skills so they can meet and exceed their job responsibilities and grow professionally.

USAID/Pakistan currently has about 255 employees. Each year the employees, in consultation
with their supervisors, maintain up-to-date individual development plans identifying areas in
which they would like additional training and/or experience, as it pertains to their work. That
training is then added to an employee’s individual development plan, which the employee’s
supervisor approves. Any training taken outside the region should be allowed only in
exceptional circumstances and must be approved by the deputy mission director.

In fiscal year (FY) 2012, USAID/Pakistan budgeted $1.1 million for domestic and international
training events. The mission spent about $715,000 of this for the international training events.
To reduce the costs of international training, USAID/Pakistan brought eight training events to
the mission, and 150 employees attended.

The objective of this review was to determine whether USAID/Pakistan complied with its mission
training policy. For the items tested, the mission did not fully comply with the mission training
policy.

For all of the items tested, the mission had individual development plans that were approved by
supervisors, and the deputy mission director approved the international travel related to them.
However, the mission did not document and approve exceptions for the training events as
required for 16 of 20 employees. Furthermore, in most cases, employees attended training
events worldwide that was neither core nor mandatory. The review found the following
problems.

•	 USAID/Pakistan did not fully comply with the policy for approving international training
   events (page 3). Office directors interviewed were either unaware of the policy or did not
   understand it. Consequently, employees routinely were attending training held in various
   international destinations, and some of these incurred excessive costs.

•	 The mission did not follow a standard approval process for training events (page 4). Only
   20 percent of the events had exceptions documented.

Therefore, we recommend that USAID/Pakistan:

1. 	Provide and document training to all office directors and senior mission management to
    make them aware of the mission training policy (page 4).

2. 	 Implement a plan to review all pending fiscal year 2013 international training events that are
     outside the Asia Regional Training Center to determine whether the courses comply with the
     mission training policy (page 4).


                                                                                                 1
3. 	Implement a standard procedure for approving all training events that are classified as
    exceptions to the mission training policy (page 4).

4. 	 Implement a plan to conduct a cost benefit assessment for all international training events
     that are not core or mandatory, and reduce the training budget by the amount of savings
     achieved (page 5).

Detailed results appear in the following section. The review’s scope and methodology appear in
Appendix I. Our evaluation of management comments is included in the report on page 6, and
the full text of management comments (without attachments) is in Appendix II.




                                                                                              2
REVIEW RESULTS

Management Did Not Comply Fully
With Policy for Approving
International Training Events
According to Mission Order 400.2, USAID/Pakistan is committed to ensure fairness, objectivity,
and consistency in providing training and promoting staff development. USAID encourages
employees to continue developing their knowledge, abilities, and skills so they can meet and
exceed their job responsibilities and grow professionally. USAID/Pakistan’s policy is to approve
training on a priority basis, depending on the budget, and with a focus on USAID core and
mandatory training to make sure that all employees can fulfill their job requirements.

The mission order states that training provided in-country or at the Asia Regional Training
Center in Bangkok, Thailand, takes priority over similar courses provided in other locations. Any
training taken outside the region should be allowed only in exceptional circumstances and must
be approved by the deputy mission director. International training—including any in Bangkok—is
limited normally to one per employee during a fiscal year.

In addition to the mission order, the Agency’s Automated Directives Systems (ADS) 458.3.3.1,
“Training and Career/Professional Development,” states that the supervisory executive officer is
responsible for assessing the costs and benefits to the government for scheduling employees to
attend training at various locations and times.

Contrary to guidance, USAID/Pakistan’s management did not comply with its policy for
approving international training events. The mission routinely allowed staff to participate in
events outside the Asia Regional Training Center without getting the deputy mission director’s
approval for exceptional circumstances or without conducting a cost benefit analysis.

During FY 2012, 113 employees attended training in Canada, Egypt, Ghana, Hungary,
Singapore, South Africa, Thailand, the United Kingdom, and the United States—including Las
Vegas, New York, and Washington, D.C. Of those, 35 (31 percent) went to one training event in
Thailand, 42 (37 percent) went to one event outside of Thailand, and 36 (32 percent) attended
multiple events.

For example, the mission spent $14,905 for one employee to attend two training events in
Washington, D.C., for 2 consecutive weeks. These same classes, or similar ones, could have
been taken in Pakistan or Thailand. Although the deputy mission director approved the travel,
the exceptional circumstances were not documented, and the mission did not conduct a cost
benefit analysis.

In another example, a third-country national (TCN)1 attended three nonmandatory or core
training events in Washington, D.C., for 3 consecutive weeks. According to mission policy,
TCNs shall receive training only for mandatory courses. Consequently, USAID/Pakistan spent
$10,034 on training that was not allowed under mission policy. Again, although the deputy

1
 The Agency’s Web site defines third-country nationals are contractors from countries other than the
United States or the country in which they work.

                                                                                                  3
mission director approved the international travel, the exceptional circumstances were not
documented, and the mission did not conduct a cost benefit analysis.

Approval process not followed. Only 4 of the 20 employees tested (20 percent) had proper
justifications or exceptions documented for attending training at international locations other
than the Asia Regional Training Center. The remaining 16 (80 percent) did not. Moreover, none
of the 20 had cost benefit analyses conducted before incurring these training expenses.

These problems occurred because of a general lack of knowledge about mission and ADS
policies. Of the ten office directors who supervise the employees who traveled internationally in
our testing, two were not aware of the mission training policy. Six assumed that a waiver or
justification was needed only if an employee was attending more than one international training,
and two of the six did not realize that the exception or justification must be documented.

The mission currently has a standard approval process, which requires approval from the
deputy mission director through a memorandum. In three instances, approval was requested via
e-mail to the deputy mission director and in one instance via a memorandum. However, 16 out
of 20 employees tested did not use this process for approvals.

In addition, the mission did not follow ADS in conducting cost benefit analyses when approving
international training. Mission officials said they annually conduct an analysis to assess whether
mandatory training should take place in Pakistan instead of outside the country. However, that
approach does not address training requests that employees submit throughout the year.

Furthermore, mission officials said there have been no changes in approving international
training for FY 2013, and their estimated travel budget for the year is $1.5 million—
$400,000 more than the budget for FY 2012. Consequently, the mission has over-budgeted for
training.

The estimated cost for all international training events in FY 2012 was $715,000. This included
113 employees attending international training events. If OIG assessed all of the events for
compliance, there could have been many instances of noncompliance. However, the review
sampled 20 employees who attended destinations worldwide, and 16 had no exception
approvals documented; the estimated cost of their travel and training was $256,000.

Because of this systemic breakdown in management controls during FY 2012, USAID/Pakistan
needs to take corrective action to fix the weaknesses. It also should examine all remaining
international trainings for FY 2013 to ensure that the mission complies with its policy and ADS.
Therefore, we recommend the following.

   Recommendation 1. We recommend USAID/Pakistan provide and document training to
   all office directors and senior mission management to make them aware of the mission
   training policy.

   Recommendation 2. We recommend USAID/Pakistan implement a plan to review all
   pending fiscal year 2013 international training events that are outside the Asia Regional
   Training Center to determine whether they comply with the mission training policy.

   Recommendation 3. We recommend USAID/Pakistan implement a standard procedure
   for approving all training events that are classified as exceptions to the mission training
   policy.

                                                                                                 4
Recommendation 4. We recommend USAID/Pakistan implement a plan to conduct a
cost benefit assessment for all international training events that are not core or
mandatory, and reduce the training budget by the amount of savings achieved.




                                                                                     5
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan has taken final action on Recommendations 2, 3, and 4 and made a
management decision on Recommendation 1. As discussed below, we disagree with the
mission’s management decision on Recommendation 4.
Recommendation 1. USAID/Pakistan agreed to document and provide training to all office
directors and senior mission management by September 30, 2013; the training will be designed
to make sure they understand their roles and responsibilities regarding staff development and
training. Therefore, the mission has made a management decision for this recommendation.

Recommendation 2. USAID/Pakistan agreed with the recommendation, stating that its
management training committee conducts a review and assessment of past and current staff
development and training needs/requirements. The mission has revised its international trip
request form. The revised form requires a signed justification from the office director for
approval by the deputy mission director for exception to the mission policy for training and staff
development outside the region. As a result, exceptional future international training requests
will be approved by the deputy mission director. In addition, the mission provided OIG with a list
of all pending trainings and these trainings were reviewed and in compliance with the mission
training policy. Therefore, the mission has taken final action.

Recommendation 3. USAID/Pakistan agreed and revised the international trip request form.
The revised international trip request form now requires a signed justification from the office
director for approval by the deputy mission director for any exception to the mission policy for
training and staff development outside the region. Therefore, the mission has taken final action.

Recommendation 4. The mission disagreed with the recommendation to implement a plan to
conduct a cost benefit assessment for all international training events that are not core or
mandatory and to reduce the training budget by the amount of savings achieved. In its
response, USAID/Pakistan stated that it completes a training cost/benefit assessment each year
prior to making training budget allocations. The response further states that a comprehensive
cost analysis report is prepared for review and approval by senior mission management,
comparing the cost of mandatory training courses that can be offered locally with regional and
international training.

However, the mission has not provided any evidence that these cost benefit assessments and
cost analysis reports were completed for FY 2013, when the training budget increased by about
35 percent. We asked for documentation several times during this review and again after
receiving the mission’s comments, but nothing has been provided. The mission has not
indicated that it intends to examine high-cost training events. As a result, we disagree with this
management decision.

In order to address this recommendation, the mission needs to develop and implement a plan to
review the total costs, including travel, associated with each proposed international training that
is not core or mandatory and determine if the benefits of the training justify the costs.



                                                                                                 6
                                                                                     Appendix I


SCOPE AND METHODOLOGY
Scope
USAID’s Office of Inspector General in Pakistan conducted this review of USAID/Pakistan’s
international training practices. It was conducted in accordance with general government
auditing standards. These standards require that we plan and perform the review to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with the review objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this review was to determine whether USAID/Pakistan complied with its mission
training policy. In FY 2012, USAID/Pakistan budgeted $1.1 million for domestic and international
training events and spent about $715,000 for international events.

We performed this review from January 28 through March 4, 2013, conducting fieldwork at
USAID/Pakistan, where we reviewed employees attending international training events for
FY 2012.

Methodology
The review team interviewed office directors, reviewed relevant policies (such as mission order
400.2 and ADS 458), and inspected the relevant documents that USAID/Pakistan provided.

Our sample of international training was based on population of 113 employees. We tested all
training events for employees whose training exceeding $10,000 in FY 2012. In some cases,
this included more than one event per employee greater than the dollar threshold; the review
team judgmentally selected the threshold amount of $10,000 spent per employee for
international trainings as an amount considered significant for one employee to incur. The
sample included 20 employees from 10 different mission offices.

For the sampled employees, we tested the number of international trainings per employee in
FY 2012. We reviewed employees’ individual development plans and looked to see whether an
exception was documented for training events outside the Asia Regional Training Center.




                                                                                              7
                                                                                                 Appendix II




MANAGEMENT COMMENTS 



MEMORANDUM



Date:            April 11, 2013

To:              Matthew Rathgeber
                 Director OIG/Pakistan

From:            Jonathan M. Conly /s/
                 Mission Director USAID/Pakistan

Subject:         Management Comments on the Review of USAID/Pakistan’s International Training
                 Practices

Reference:       Report No. G-391-13-001-S dated March 07, 2013



The USAID/Pakistan Mission would like to thank the OIG for providing the Mission the opportunity to
review the draft review report of International Training Practices. The Mission management appreciates
efforts of the OIG in explaining the review process and maintaining a collegial atmosphere. This
memorandum contains USAID/Pakistan’s management response to the draft review report. We have also
added additional information that is meant to give the report a broader context.

Staff development and training in USAID Pakistan is the Mission’s highest priority to enhance individual
and organizational performance. To ensure all categories of Mission personnel are well equipped with the
tools needed to advance the USG’s foreign policy agenda through USAID programs.

As noted in the Summary of Results section of the review report, the Mission fully complied with its
policies and procedures with regard to the preparation of Individual Development Plans (IDP) as well as
having a Deputy Mission Director approve international travel for training. The report does, however,
fault the mission for not documenting and approving, as an exception, training events which took place
outside of the region. Specifically, in the Review Results section of the report, on page 3, the report notes
that “those courses outside the region should only be allowed in exceptional circumstances that must be
approved by the deputy mission director.” The OIG’s reference to exceptional circumstances “must be
approved by the deputy mission director” is not explicitly or implicitly stated in the Mission Order. It is
unclear as to the origin of this statement as reported. This is a matter of interpretation. Reading Section II.
B and Section V. E of the Mission Order, it is reasonable one might draw the conclusion reached in the
report. However, there is a nuanced difference regarding “priority over similar courses provided at other

                                                                                                             8
                                                                                               Appendix II


locations” as stated in Section II. B – Guidelines and V.E regarding the requirement for an “action
memorandum for approval” for courses outside the region. A revised and updated Mission Order on
Training Policies and Procedures will be promulgated to clarify and specifically state documentation
requirements and requisite approvals.

The intent of Section II.B is to provide the guidelines governing mission training. The Mission Order
does not prescribe documentation requirements in this section. While the section states preferences for
training locations, what is more relevant is that mandatory or required courses are not always available
within the region as stated in the Mission Order. USAID Pakistan, to the maximum extent possible, offers
core and mandatory courses at post; however, security, visa issuance and training course provider
schedules are also factors that must be taken into consideration. Additionally, the RDMA is not the
Agency’s only training center. In addition to RDMA, Agency sponsored training centers are established
in Egypt, South Africa as well as USAID University in Washington, D.C. As also noted in the pre- and
exit-conferences, it is not the Mission’s intent to strictly limit locations available for staff development
and training; an element that will be clarified in the revised Mission Order.

Accordingly, a significant portion of the review’s findings are based on an interpretation of the intent of
the Mission Order in the Guidelines section. As noted in the report, training that occurred outside the
region was first approved by the employee’s supervisor during the IDP process and subsequently
approved by a Deputy Mission Director on the international travel request, which is required.

The report asserts that the Mission is in non-compliance with an ADS requirement for cost-benefit
analysis. Specifically, the report states according to ADS 458.3.3.1 “the Executive Officer is responsible
for assessing the cost/benefit to the government for scheduling employees to attend trainings at various
locations and time.” There is an established Mission Training Committee (MTC). The MTC members are
the Supervisory Program Officer, the Mission Controller, the Executive Officer and Mission Training
Coordinator. The MTC is charged with reviewing Mission training plans at the macro-level based on
training plans submitted by individual offices and the development of the Mission’s training budget. In
assessing the Mission’s training plans, the MTC considers (1) historical data that includes a
comprehensive assessment of previous training undertaken by Mission staff as well as core course
offerings, (2) an analysis of core and mandatory course requirements to ensure Mission hosted and
individual training is consistent with the functional requirements of staff positions and Agency mandated
certifications, and (3) the MTC evaluates projected training costs based historical data. The MTC is
responsible for the development and administration of the Mission’s annual training budget. The
assessment of training costs also takes into consideration the previous year’s actual completed training
and per capita amounts spent (per employee). The Mission’s resource allocation for staff development
and training is predicated on a comprehensive review of staff needs and funds availability.



Recommendation No. 1: We recommend USAID/Pakistan provide and document training to all
office directors and senior mission management to make them aware of the mission training policy

Management comments:
Mission management agrees with the recommendation. In view of the high staff turnover as a result of
the one year tour of duty, Mission management will implement orientation/training program for senior
management personnel. This program will be designed to ensure decision-makers understand their role
and responsibilities in requesting staff development and training opportunities for their staff and the
approval process requirements. Mission expects to complete this action by September 30, 2013. This time
frame takes into consideration the summer transition period and the arrival of new personnel.


                                                                                                          9
                                                                                               Appendix II


Based on the actions identified above, the Mission requests OIG’s acknowledgement that a management
decision has been reached and that the recommendation will be deemed closed when the Mission
conducts the first of these orientation/training sessions to all office directors and senior management
personnel.

Recommendation No. 2: We recommend USAID/Pakistan implement a plan to review all pending
fiscal year 2013 international trainings that are outside the Asia Regional Training Center to
determine whether the courses comply with the mission training policy.

Management comments:
Mission management agrees with the recommendation in principle. Annually, the MTC conducts a review
and assessment of past and current staff development and training needs/requirements. The MCT provides
the requisite level of oversight and evaluation of Mission trainings and monitoring of resource allocations.

Also, The Mission has revised its International Trip Request form (Annex- A). The revised form requires
a signed justification from the Office Director for approval by the Deputy Mission Director for exception
to the Mission policy for training and staff development outside the region. As a result, exceptional future
international training requests will be approved by the Deputy Mission Director. Therefore
implementation of a separate plan to review all pending FY 2013 international trainings is not necessary.

Based on the above, the Mission requests OIG’s acknowledgement that a management decision has been
reached and requests closure of the recommendation upon issuance of the final review report.

Recommendation No. 3: We recommend USAID/Pakistan implement a standard procedure for
approving all trainings that are classified as exceptions to the mission training policy.

Management comments:
Mission management agrees with the recommendation. As also mentioned in response to
recommendation no. 2 above, the Mission has revised the International Trip Request Form (Annex- A).
The revised form requires a signed justification from the Office Director for approval by the Deputy
Mission Director as an exception to the Mission policy for training and staff development outside the
region.

Based on the above, the Mission requests OIG’s acknowledgement that a management decision has been
reached and requests closure of the recommendation upon issuance of the final review report.

Recommendation No. 4: We recommend USAID/Pakistan implement a plan to conduct a cost
benefit assessment for all international training events that are not core or mandatory and reduce
the training budget by the amount of savings achieved.

Management comments:
Mission management does not agree with the recommendation. The Mission believes that it is complying
with all the requirements pertaining to the analysis of cost/benefit analysis to the government of employee
trainings.

Training cost/benefit assessments are completed each year prior to training budget allocations. A
comprehensive cost analysis report is prepared for review and approval by senior Mission management.
In this report, the MTC compares the cost of mandatory training courses that can be offered locally versus
regional and international training offerings and/or in USAID/W. The MTC considers workload factors,
scheduled training events, timing and number of courses available, including the cost of training at


                                                                                                         10
                                                                                             Appendix II


regional centers in Bangkok, Cairo and other USAID training facilities in determining costs—relative to
approved Individual Training Plans (IDPs) and Mission requirements.

Agency’s core and mandatory certification courses are offered at the Mission level, which results in
significant savings each year. For example, in 2011 and 2012 a total of 93 employees were trained to be
certified as CORs/AORs through trainings conducted at the Mission—a total of five courses were offered
which resulted in net savings of over $400,000 (average tuition fee is $4,500 per employee), which would
not have been possible had these trainings not been conducted locally. This estimate does not take into
account the cost associated with transportation and per diem. Likewise the Mission routinely offers PDM,
PFA, and Monitoring and Evaluation as well as the GLASS certification program for Mission staff
requiring access to this financial management system. According to the Agency’s Training and Education
Division (HR/TE), USAID Pakistan has the most aggressive and effective Mission level training program.
In two years a total of 485 Mission participants took part in Mission level training programs. For FY 2013
it is anticipated that at least 285 staff members will benefit from Mission level offered courses.

It is unclear what the basis for this recommendation is or exactly how the OIG determined that the
Mission is not in compliance with the cost/benefit analysis requirement. We do not agree with the OIG’s
interpretation of the requirements. It appears this recommendation significantly overstates Agency and
Mission policy requirements. Even if the Mission management concurred with the advice that a cost
benefit assessment would facilitate enhanced staff ability to achieve Mission program objectives,
reduction of the Mission training budget would not necessarily be a logical or programmatically prudent
result of such an assessment. The Mission’s training requirements and hence training budget may increase
in the following year as new personnel joins the Mission, as a result of either new activities coming on
board or staff joining in to replace outgoing employees.

Based on the above, the Mission requests OIG’s acknowledgement that a management decision has been
reached and requests closure of the recommendation upon issuance of the final review report.




                                                                                                       11
